MEMORANDUM


DATE:                 '03/30/00
TO:                    Eile
FROM:
THROUGH:
RE:
                          fii;:

Background:

In April 1998, we received an allegation
                                  -      that funds from a university award was being-
used to support research at a private cor oratlon. Specifically, it was alleged that
several graduate students funded unde?"P r o j e c t were actually working on the
PI'S and coPI's-SBIR project.

                                                         re associate professors at
                                                          rporation,-
                                         o develop commercial applications of their
                                                                    for collaborative
                                                           and develo rototypes
                                                           e PI and h           e co-
PI for this award.'   '                                             *,   .

                         eceived a Phase I SBIR award                  ) for applied
                                 of a specific type of
            to be tested at                            The background section of the
proposal describes in full th!supporting research conducted under t h e a r d .

Investigation:

We reviewed the proposals to better understand ihe research funded under each
proposal, and determined that there was distinct and separable research proposed
under each award.

We decided to interview the graduate students involved with the
determine whether they worked on the SBIR award, or
development of the                                          contact the three graduate
students listed in the budget narrative for the            ward, but were able to find
only one. The student told us that he did not
he had a very positive experience while working under the  F.
                                                           SBIR project and noted that
                                                                             The other
students were longer at the university and we could not find t elr present addresses.
Findings:

Based on the comments by the former graduate student, the apparent lack of damages
to the federal government, and the fact that no additional complaints have been raised
about project, no further action will be taken and this case is closed.
